No.

IN THE SUPREME COURT OF THE UNITED STATES

James Kerr Schlosser; Petitioner, v.
The United States of America; Respondent.

APPLICATION FOR EXTENSION OF TIME TO FILE PETITION FOR WRIT OF
CERTIORARI TO THE UNITED STATES COURT REGARDING A DECISION
FROM THE UNI l'ED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT.

TO THE HONORABLE SAMUEL A. ALITO, JUSTICE OF THE SUPREME COURT
OF THE UNITED STATES AND CIRCUIT JUSTICE FOR THE THIRD CIRCUIT:
Pursuant to 28 U. S.0 ยง2101 (f) and Rule 13.5 of the Rules of this Court, Pro se Petitioner
James Kerr Schlosser respectfully requests for a 60-day extension of time to file his
petition for certiorari in this Court to and including October 18, 2019.
The final judgment of the UNITED STA I ES COURT OF APPEALS FOR THE THIRD
CIRCUIT entered on May 29, 2019 in UNI IED STA IES COURT OF APPEALS FOR
THE THIRD CIRCUIT Case No. 17-2872, and petitioner's time to petition for certiorari
in this Court expires August 19, 2019. This application is being filed more than 10 days
before that date.
Copies of the opinions below are attached hereto, as is the denial of the petition for
rehearing by the panel and the Court en banc. The jurisdiction of this Court is invoked
under 28 U.S.0 ยง1254.
The UNI LED STALES COURT OF APPEALS FOR THE THIRD CIRCUIT's decision
involved dropping Count One, a 7212(a) charge, to which the all parties agreed, but by
the Appeals Court may have erred not seeing that withholding the defendants critical and
exculpatory evidence from the jury in a tax case involving mens rea, affected the juries
outcome for the charges in Counts Two and Three as well.
Petitioner believes that the "due process" clause of the Fifth Amendment and the Sixth
Amendment's criminal trial provisions which were violated, which have been determined
to be the basis for the constitutional right to present a complete defense. This
constitutional right protects this petitioner's right to compulsory process to secure

RECEIVED
1

AlIG 13 71119
OFFICE OF THE CLERK
SUPREME COURT; U.S.

SCHLOSSER v. UNITED STATES Application for Extension of Time to File
Petition for Writ of Certiorari
witnesses for trial, as well as his right to testify in his own behalf and to offer relevant
documentary evidence supportive of his defense.
Petitioner further contends that denying critical evidence amounts to an improper
sanction against his ability to visually show the jury his "state of mind" and not for the
truth of the matter. This case is of national importance because there are other Circuits
that allow for necessary evidence to be admitted in these types of mens rea cases, and
there may well have been a different outcome for the petitioner in those circuits.
As applied to petitioner, UNITED STATES COURT OF APPEALS FOR THE THIRD
CIRCUIT made the decision not to drop Counts Two and Three as well as Count One, or
limit restitution only to Counts 2 and 3, dismiss the case or demand a re-trial or other
option, leaving the Petitioner with this last remedy, the Supreme Court of the United
States of America.
At the same time as filing this pro-se petition, the press of business in pro-se Petitioner's
own life is heavy, as he is almost destitute, working 10-12 hours a day, trying to re-build
his life after losing his family and home, getting "immediate release" from prison on
8/2/18 after serving a year, and is out on Bond Pending Appeal. Petitioner should be time
served on Counts Two and Three, and wants to finish this Writ of Certiorari timely, but
may need a few more days beyond the August 19, 2019 current deadline, and if he can't
do a good job on this Writ, will need to get counsel's assistance.
For these reasons, Petitioner respectfully requests that an order be entered extending his
time to petition for certiorari in the above-captioned case to and including October 18,
2019.

Respectfully submitted,
August 6, 2019

James Kerr Schlosser
1828 Krystle Drive
Lancaster, Pa. 17602
717-371-8563

2

